No. 20-267

3fa tfje Supreme Court of tfje ®ntte& &tate*
Sean Braunstein,
Petitioner,
v.
Jericka Braunstein,
Respondent.
CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule and Orders of
this Court dated April 15, 2020, I declare that the
within Motion for Rehearing of Petition for Writ of
Certiorari to the New Hampshire Supreme Court
being filed herewith is 2,960 words, excluding parts of
the document that are exempted.
Respectfully submitted,

C&Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
Dated: December 4, 2020

